OFFICE OF INSPECTOR GENERAL


AUDIT OF USAID/HAITI’S
PUBLIC LAW 480 TITLE II
PROGRAMS

AUDIT REPORT NO. 1-521-12-004-P
July 20, 2012




SAN SALVADOR, EL SALVADOR

Office of Inspector General



July 20, 2012

MEMORANDUM

TO:    	        USAID/Haiti Mission Director, Carleene Dei
                USAID/Office of Food for Peace Director, Dina Esposito

FROM: 	         Regional Inspector General/San Salvador, Jon Chasson /s/

SUBJECT:	       Audit of USAID/Haiti’s Public Law 480 Title II Programs
                (Report No. 1-521-12-004-P)

This memorandum transmits our final report on the subject audit. In finalizing the audit report,
we considered your comments on the draft report and have included those comments in their
entirety in Appendix II of this report.

The final report includes 10 recommendations to help the mission improve various aspects of
the Public Law 480 Title II Program. Based on your written comments in response to the draft
report, management decisions have been reached on Recommendations 3 and 7. Please
provide the Audit Performance and Compliance Division of USAID’s Office of the Chief Financial
Officer with evidence of final action to close the open recommendations.

A management decision was not reached on Recommendations 1, 2, 4, 5, 6, 8, 9, and 10.
Please provide written notice within 30 days of any action planned or taken to implement these
recommendations.

I want to express my appreciation for the cooperation and courtesies extended to us during this
audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel.503-2501-2999 ·Fax(503-2228-5459
www.usaid.gov
CONTENTS 

Summary of Results ................................................................................................................... 1 


Audit Findings ............................................................................................................................. 4 


     Integration of Key Activities Was Uneven, Poorly Tracked, and
     Their Impact Could Not Be Determined .................................................................................. 4

     Food for Peace and USAID/Haiti Did Not Identify Best
     Practices for Mothers’ Clubs ................................................................................................... 6 


     Recommended Approach for Preventing Malnutrition
     Was Not Implemented Fully .................................................................................................... 8

     Cooperating Sponsors Used Indicators That Were Excessive, Duplicative, and Not
     Coordinated Across the Program ............................................................................................ 9 


     Haiti’s Title II Program Overlapped With Other USAID-Funded Programs ........................... 11 


     Food for Peace Did Not Optimize Its Use of Title II Data Management Tools ...................... 13 


Evaluation of Management Comments ................................................................................... 15 


Appendix I—Scope and Methodology .................................................................................... 19 


Appendix II—Management Comments ................................................................................... 22 


Abbreviations

The following abbreviations appear in this report:

ADS             Automated Directives System
BCC             behavior change communication
CRS             Catholic Relief Services
FANTA           Food and Nutrition Technical Assistance
FFP             Food for Peace
FY              fiscal year
IFRP            International Food Relief Partnership
ITSH            internal transport, shipping, and handling
LMMS            Last Mile Mobile Solution
MCHN            maternal and child health and nutrition
MYAP            multiyear assistance program
P.L.            Public Law
PM2A            Preventing Malnutrition in Children Under 2 Approach
RIG             Regional Inspector General
TOPS            technical and operational performance support
WINNER          Watershed Initiative for National Natural Environmental Resources
SUMMARY OF RESULTS 

The Food for Peace Act (Agricultural Trade Development and Assistance Act of 1954), also
known as Public Law 480 (P.L. 480) or Food for Peace (FFP) is the U.S. Government’s principal
mechanism for implementing its international food assistance initiatives. The intent of this
legislation, which has been modified many times, to reduce hunger and malnutrition and assure
that people everywhere have enough food at all times for healthy, productive lives.

Haiti’s P.L. 480 Title II1 nonemergency program is directed by USAID’s Office of Food for Peace
in Washington, D.C.; the daily activities are managed and monitored by the USAID/Haiti activity
manager. USAID/Haiti’s Title II multiyear assistance programs (MYAPs) focus on agricultural
productivity, maternal and child health and nutrition (MCHN), natural resource management,
education, safety net support, and early warning systems. The main goal of the program is to
reduce food insecurity2 and increase the resiliency of vulnerable and extremely vulnerable rural
households. MYAPs are awarded through cooperative agreements (versus contracts), and
therefore USAID’s control is limited to choosing the cooperating sponsors who respond with the
best overall proposals, which may or may not include the full range of possible interventions to
assist beneficiaries.

USAID/Haiti’s Title II programs operate through agreements USAID has with three cooperating
sponsors.

	 Catholic Relief Services (CRS). Award from February 2008 to September 2012 for total
   estimated program costs, including cost share, of $61.7 million.

	 World Vision. Award from February 2008 to September 2012 for total estimated program
   costs, including cost share, of $91.5 million.

	 ACDI/VOCA. Award from February 2008 to February 2013 for total estimated program
   costs, including cost share, of $37.4 million.

As of January 2012, total program obligations and expenditures were $53,886,541 and
$46,370,608, respectively. (The Scope and Methodology on page 19 for further explanation of
program funding mechanisms).

The objective of the audit was to determine whether the P.L. 480 Title II program in Haiti is
reducing food insecurity and increasing the resiliency of vulnerable and extremely vulnerable
rural households.


1	
     The P.L. 480 food aid program is comprised of three titles. Each title has different objectives and
     provides agricultural assistance to countries at different levels of economic development. Titles II and III
     are administered by the Agency for International Development. Title II provides for the donation of U.S.
     agricultural commodities by the U.S. government to meet humanitarian food needs in foreign countries.
2
     According to the World Health Organization, “Food security is built on three pillars: food availability:
     sufficient quantities of food available on a consistent basis; food access: having sufficient resources to
     obtain appropriate foods for a nutritious diet; and food use: appropriate use based on knowledge of
     basic      nutrition    and     care,    as     well    as      adequate     water    and       sanitation.”
     (http://www.who.int/trade/glossary/story028/en/.)


                                                                                                               1
This audit determined that USAID/Haiti’s implementation of P.L. 480 Title II nonemergency
assistance generally has improved conditions for targeted beneficiaries and reportedly reduced
the number of underweight, stunted children younger than 5 years old. Site visits and
beneficiary interviews indicate that positive impacts include awareness and implementation of
improved agricultural practices, increased crop yields, improved hygiene and sanitation
practices, access to credit via savings groups, and increased breast-feeding. However, we
could not determine whether the effects will last well into the future.

The audit found that the mission was generally doing a good job managing the program. For
instance, USAID/Haiti staff made frequent field visits to the cooperating sponsors’ activity
locations. USAID/Haiti staff and the cooperating sponsors also met frequently to discuss
problems and share successful methodologies. The cooperating sponsors were flexible in
learning from one another, sharing and adopting each other’s best practices. Additionally, a
thorough, independent midterm evaluation of the program was conducted in fiscal year
(FY) 2010.

Since many program locations were extremely remote, the cooperating sponsors encountered
challenges while implementing program activities. In addition, this particular program faced
more than the usual share of hardships, including severe flooding and four hurricanes in
FY 2008, the devastating earthquake of January 2010, a cholera outbreak in October 2010, and
upheaval around the time of the elections in 2009 and 2010.

Although the program achieved many successes despite the challenging environment, the audit
identified the following areas for improvement:

	 Integration of key activities was uneven and poorly tracked, and their impact could not be
   determined (page 4).

	 FFP and USAID/Haiti did not identify best practices for mothers’ clubs (page 6).

	 The recommended approach for preventing malnutrition was not implemented fully (page 8).

	 Cooperating sponsors were using indicators that were excessive, duplicative, and not
   coordinated across the program (page 9).

	 Haiti’s Title II program overlapped with other USAID-funded programs (page 11).

	 FFP did not optimize the use of Title II data management tools designed for the program
   (page 13).

To help FFP and USAID/Haiti improve the efficiency and effectiveness of its P.L. 480 program,
the Regional Inspector General (RIG)/San Salvador makes the following recommendations:

1. 	Establish and implement a plan for the design, tracking, correlation, and analysis of
    maternal and child health and nutrition and livelihood integration for the fiscal year 2013
    multiyear assistance program (page 5).

2. 	Establish and implement a plan for the design, tracking, correlation, and analysis of the
    effectiveness and efficiency of mothers’ clubs for the fiscal year 2013 multiyear assistance
    program (page 7).



                                                                                              2
3. 	Develop and implement a plan to evaluate the cost-effectiveness and efficiency of the
    various mothers’ clubs that cooperating sponsors have implemented (page 8).

4. 	Develop a cost estimate for implementing the first 1,000 days approach for the next
    multiyear assistance program to make sure potential cooperating sponsors incorporate
    sufficient resources in their budgets and demonstrate the capacity to implement the
    methodology fully (page 9).

5. 	 Include validation of implementation of the first 1,000 days approach in the monitoring plan
     for the next multiyear assistance program (page 9).

6. 	 Obtain expert food security technical assistance in developing the fiscal year 2013 multiyear
     assistance program performance indicator tracking tables to determine the most important
     indicators to track, minimize inclusion of less significant ones, be sure that cooperating
     sponsors use consistent terminology for similar indicators, and incorporate information that
     is beneficial for research on food security assistance in the program indicators (page 11).

7. 	 Examine ongoing and proposed activities in Mirebalais to avoid duplicating efforts (page 13).

8. 	 Strengthen policies and procedures to confirm that programs that receive International Food
     Relief Partnership grants are not duplicating Title II programs (page 13).

9. 	 Implement a plan to create a central repository for data management tools developed by
     Title II partners (page 15).

10. Retain the ACDI/VOCA tool for potential inclusion in the repository for data management
    tools (page 15).

Detailed findings follow. The audit scope and methodology are described in Appendix I. Our
evaluation of FFP/Washington and USAID/Haiti’s management comments will appear on page
15, and the mission’s comments will appear in Appendix ll.




                                                                                                3
AUDIT FINDINGS 

Integration of Key Activities
Was Uneven, Poorly Tracked,
and Impact Could Not Be Determined
Automated Directives System (ADS) 201.3.83 states that USAID missions should devise foreign
assistance programs and activities to have the greatest possible development impact.
Furthermore, this impact should be sustainable. USAID defines this concept in Strategy for
Sustainable Development as one that will permanently enhance the capacity of a society to
improve its quality of life.

According to USAID’s 2009 Title II technical guidance,4 the MCHN component should be linked
consistently with the agricultural and livelihoods components of the program. Additionally,
increased agricultural production and improved livelihoods activities may result in the food ration
component becoming less essential, because some families are better able to support and feed
their families.

The program’s 2010 midterm evaluation noted the lack of integration between the livelihood and
MCHN components, and it recommended linking the two in the future. CRS and ACDI/VOCA
both made efforts to address the recommendation. CRS increased integration of home gardens
and savings groups in its mothers’ clubs, which were small groups of beneficiary mothers (or
mothers of beneficiary children) gathered to discuss program materials. ACDI/VOCA amended
its program approach to increase integration with the MCHN component when possible and
began integrating home gardens and promoting alternative nonagricultural livelihood
opportunities.

However, despite the technical guidance and the evaluation’s recommendation, USAID/Haiti’s
integration of the livelihood and MCHN components was inconsistent, and the tracking of the
links was weak to nonexistent.

	 ACDI/VOCA was limited in its integration approach because it offers the two components in
   only 5 of 10 communes in the target area (Haiti’s Ministry of Agriculture discouraged food
   distribution in the agroecologically favored areas in ACDI/VOCA’s region). Even when
   ACDI/VOCA offered both in a target commune, they were not always integrated.

	 World Vision also amended its program description after the evaluation, stating, “A major
   effort will be made to continue linking agriculture production and livelihood enhancement
   activities with MCHN activities.” However, the auditors did not find evidence to support
   implementation of this strategy during field visits, and World Vision explained it is only
   offering integrated MCHN and livelihood components in 8 of the 16 communes because of
   resource limitations.


3
    ADS 201.3.8 was revised on January 17, 2012. The citations in this report refer to the previous version
    of ADS, in effect during the period covered by the audit.
4
    TRM-01: Preventing Malnutrition in Children Under 2 Approach (PM2A): A Food-Assisted Approach.
    Produced by the Academy for Educational Development for USAID, Washington, D.C., October 2009.


                                                                                                         4
In addition to the varying levels of integration among the three cooperating sponsors, none had
originally developed indicators to measure the level of integration of the two components (e.g.,
how many beneficiaries are receiving both types of assistance).

After the midterm evaluation, CRS started tracking this information in 2011; however, it tracked
integration of livelihoods with mothers’ clubs rather than with MCHN beneficiaries, and only half
of the MCHN beneficiaries were in the clubs in FY 2011. In addition, the definition for this
indicator does not succinctly define livelihoods assistance. CRS officials said it was bringing in
a consultant to improve how it gathers and reports data.

ACDI/VOCA started tracking MCHN and livelihoods integration in 2011. However, the data are
internal and not part of its performance reporting to USAID. In addition, ACDI/VOCA officials
said the data are not very accurate because the information comes from beneficiaries who are
reluctant to report that they benefit from both programs because they fear of losing services or
eligibility. World Vision has not developed an indicator for or tracked MCHN beneficiaries
receiving livelihood assistance.

Since the 2008 Title II guidance the cooperating sponsors used in designing their programs did
not specify integrating MCHN and livelihoods activities, cooperating sponsors did not develop
indicators to track integration. The guidance provided in 2009 encouraging integration was not
adopted fully into the program.

Without accurate tracking, USAID cannot determine whether integrating the two components
has had a better, more sustainable impact for beneficiaries than just the MCHN interventions do
on their own. USAID/Haiti cannot determine the value these activities provide. FFP has
contracted two separate entities, FANTA5 (now FANTA-2) and TOPS (technical and operational
performance support),6 to analyze Title II data. According to FANTA-2 officials, these data have
been weak or lacking historically, and they are needed throughout Title II programs. Having this
information would help USAID make informed decisions about any future adjustments to the
program.

The 2012 Country Specific Information for Haiti contains guidance for integrating livelihood
activities with MCHN households for the next MYAP. This requirement was added to promote
more women-focused livelihood integration, although the decision was not based on any
evidence that this approach has provided a more positive impact. USAID/Haiti officials said
there was no practical way to measure the impact of integration efforts of the current MYAP.
However, the next P.L. 480 program could help assess whether interventions of livelihood
activities can have a significant and potentially sustainable impact on reducing food insecurity
for MCHN beneficiaries. Based on this we make the following recommendation.

     Recommendation 1. We recommend that Food for Peace and USAID/Haiti establish
     and implement a plan for the design, tracking, correlation, and analysis of maternal and
     child health and nutrition and livelihood integration for the fiscal year 2013 multiyear
     assistance program


5
    The Food and Nutrition Technical Assistance II Project (FANTA-2) provides technical support to USAID
    and its partners to improve nutrition and food security policies, strategies, and programs.
6
    FFP’s contract “Technical and Operational Performance Support - Program for FFP Grantees,” or
    TOPS, is designed to capture best practices for improved methodologies in Title II food aid commodity
    programs.


                                                                                                       5
Food for Peace and USAID/Haiti
Did Not Identify Best Practices
for Mothers’ Clubs
According to ADS 200.3.2.2, USAID seeks to identify its customers and to secure their
participation in order to better target projects and to focus the Agency’s efforts and resources on
the most productive tasks. In addition, ADS 201.3.87 states that USAID missions should devise
foreign assistance programs and activities to have the greatest possible impact on
development.

Behavior change communication (BCC) is an approach that Title II cooperating sponsors use to
reduce malnutrition and disease. Mothers’ clubs are one of the primary vehicles the
three cooperating sponsors use to convey BCC to Title II beneficiaries, and this is done through
training on breast-feeding, child feeding practices, treatment of diarrhea, nutrition, immunization,
family planning, and hygiene. BCC can have a critical impact on the survival of young children;
for instance, ADS 212 states that among all preventive health and nutrition interventions,
improved breast-feeding has the greatest potential to reduce mortality for children younger than
5—by up to 13 percent.8

The audit found evidence that BCC is succeeding in Haiti. However, while the cooperating
sponsors are using similar information and presentation, they are not all using the same
mothers’ club models for disseminating information. According to a TOPS representative, the
most efficient, effective model is the “care group” model. This model uses a paid staff health
promoter to train and support groups of mothers twice per month, with each group made up of
10 to 15 volunteers selected by the community. These women, called “leader mothers,” are
then responsible for teaching what they have learned to ten households. The multiplier effect of
this method is that 100 to 150 women are trained for every staff health promoter.

The audit found that only one of the cooperating sponsors, ACDI/VOCA, was using the care
group model. ACDI/VOCA started out with the traditional mothers’ club but switched to the care
group model in 2010 in response to the midterm evaluation’s recommendation that the model
should be considered. World Vision and CRS were using traditional mothers’ clubs. World
Vision organizes its clubs based on age (clubs of women whose children are younger than 2) or
physiological status (pregnant or lactating women, mothers of malnourished children). CRS
was working to duplicate this model.

CRS’s model limits the membership of the mothers’ clubs to mothers selected by the community
volunteers. During site visits, the audit team interviewed several mothers who wanted to be in a
club but had not been selected. The midterm evaluation’s team had similar observations; when
they asked a group of women why they were not in a club, the response was “We have not
been invited to do so,” or “We have not been authorized to do so.” The women noted that
mothers in the clubs had a great advantage because of what they learned about caring for their
children. The evaluation further stated that the community volunteers need to be involved, but
as trainers under the care group model.



7
    ADS 200.3.2.2 and 201.3.8 were revised on January 17, 2012. The citations in this report refer to the
    previous version of ADS in effect during the period covered by the audit.”
8
    G. Jones et al., “How many child deaths can we prevent this year?” Lancet, July 5, 2003, 65-71.


                                                                                                       6
The audit also supports the results of a study referenced by TOPS showing that the care group
model is the more cost-effective method for reaching wide audiences. For instance, while World
Vision succeeded in reaching more than 90 percent of its target population with BCC, it was less
efficient than ACDI/VOCA. Only 9 mothers on average were trained in mothers’ clubs versus
100 trained in ACDI/VOCAs’ mother care groups. In addition, World Vision’s clubs had a ratio
of 50 percent paid personnel supporting its clubs compared with ACDI/VOCA’s ratio of
10 percent (as in the chart below). By using the traditional mothers’ clubs (using fewer
resources than World Vision), CRS reached at least 600 more mothers than ACDI/VOCA did.
However, CRS started out with almost half of its mothers’ clubs carried over from its previous
Title II program, and ACDI/VOCA didn’t start using the care group model until FY 2011.

                              Mothers’ Clubs Summary (Unaudited)

               Element                       World Vision      ACDI/VOCA             CRS
 Number of mothers’ clubs                            1,950             38                  253
 Number of mothers receiving BCC
                                                     17,500          3,800               4,405
 messages
 Mothers trained per club                                 9            100                  17
 Percent of coverage in target
                                             Greater than 90            34          Not tracked
 location
 Number of paid people assisting
                                                        299             40                  16
 clubs
 Number of unpaid volunteers
                                                        300           380                  190
 assisting clubs
 Total people assisting clubs                           599           420                  206
 Percent volunteers                                      50            90                   92
 Percent paid personnel                                  50            10                    8
Sources: World Vision, ACDI/VOCA, and CRS.

Thus, World Vision reached a large number of beneficiaries, but was not as cost-effective as
ACDI/VOCA. While CRS was more cost-effective, it reached fewer mothers than would have
been possible had it used the care group model (and potentially reduced the incidence of child
mortality and stunting by a greater percentage). The data suggest that incorporation of this
methodology could have increased the BCC received by program beneficiaries at less cost if all
the sponsors had adopted the care group model when MYAP began.

The cooperating sponsors used mothers’ clubs as the main vehicle for disseminating BCC to
beneficiaries. The next MYAP also requires effective use of BCC interventions for improving
nutrition, hygiene, and health practices, however, leaving implementation methodology to the
potential awardees to propose. Although USAID/Haiti officials say the care group model is
good, they do not want to recommend one model over another without further validation;
however, there is no way to validate the model during this MYAP because that is not part of
FFP’s programing. The MYAPs are awarded through cooperative agreements that permit
cooperating sponsors to adopt their own activity models. FFP will participate in validating
activity models only if a cooperating sponsor suggests it. Therefore, the Title II program is not
geared to make sure that the greatest possible development impact is achieved.

To improve the implementation of Title II activities related to mothers’ clubs, we make the
following recommendations.




                                                                                                  7
     Recommendation 2. We recommend that Food for Peace and USAID/Haiti establish
     and implement a plan for the design, tracking, correlation with impact, and analysis of
     the effectiveness and efficiency of mothers’ clubs for the fiscal year 2013 multiyear
     assistance program.

     Recommendation 3. We recommend that Food for Peace develop and implement a
     plan to evaluate the cost-effectiveness and efficiency of the various mothers’ club
     models being implemented by Title II cooperating sponsors.

Recommended Approach for
Prevention of Malnutrition
Was Not Implemented Fully
USAID’s best practice for preventing malnutrition is the “Preventing Malnutrition in Children
Under 2 Approach” (PM2A). PM2A is a food-assisted approach that targets a package of health
and nutrition interventions to all pregnant women, mothers of children younger than 23 months
old, and children younger than 2 in food-insecure program areas. Because they are the most
nutritionally-vulnerable members of the population, the program targets everyone in these
groups to protect children from malnutrition and its long-term consequences.9 PM2A differs
from the traditional recuperative approach, which targets children younger than 5 once they
have become malnourished.9

USAID’s support for PM2A is based on a 2002-2006 study of a Title II program in Haiti that
found the preventive approach was more effective in reducing the prevalence of stunted,
underweight children and overall malnutrition than the recuperative approach.10 In addition, the
study showed that PM2A was cost-effective because it had lower direct program costs per
beneficiary month11 than the recuperative approach ($15 versus $21).

Although all three cooperating sponsors’ cooperative agreements stated that they would
implement the fundamentals of PM2A, World Vision was the only one to do so from the start.
The other two sponsors embraced the approach later.

	 ACDI/VOCA did not incorporate PM2A into its activities initially; instead, it awarded the
   health component to a partner, Management Sciences for Health, which did not use PM2A.
   ACDI/VOCA found that the partnership was not working and subsequently terminated the
   agreement. ACDI/VOCA then clarified and submitted the new health strategy to USAID and
   in FY 2010 began full-scale implementation of PM2A.

	 CRS chose to pilot PM2A model slowly because of (1) resource constraints, (2) lack of
   storage capacity and staff at the commodity distribution centers, and (3) a desire to
   implement gradually to be sure the model was working.


9	
    Preventing Malnutrition in Children Under 2 Approach (PM2A): A Food-Assisted Approach.
10
    Purnima Menon and Marie T. Ruel, Prevention Is Better than Cure, Final Report of the Evaluation:
    Prevention or Cure? Comparing Preventive and Recuperative Approaches to Targeting Maternal and
    Child Health and Nutrition Programs in Rural Haiti. Academy of Educational Development,
    Washington, DC, July 31, 2007.
11	
    Beneficiary month means that each child or pregnant or lactating woman is counted once for each
    month he or she is in the program.


                                                                                                  8
The partial implementation occurred because USAID did not embrace PM2A from the start or
make sure it was implemented fully, although all three cooperating sponsors had included it in
their proposals and the 2009 technical guidance promoted it.

CRS reported the pilot approach for implementing PM2A in its 2009 “Pipeline and Resource
Estimate Proposal,”12 but did not specify in this document—or any subsequent reporting—where
and to what extent it was implementing PM2A. The Title II activity manager in Haiti thought that
CRS had implemented PM2A at least to some degree in most of the target areas. However, as
of December 2011, CRS had implemented the program in just half of them. In addition, as
mentioned above, CRS lacked sufficient resources for implementing PM2A and continues to
implement it only partially. Had the method been fully embraced and rapidly implemented by
both ACDI/VOCA and CRS, malnutrition would likely have further decreased in their target
locations.

FFP’s announcement for the next Title II program in Haiti states that development partners
should use PM2A, which is renamed the “first 1,000 days approach.”13 To ensure that the next
MYAP fully implements this approach, we make the following recommendations.

      Recommendation 4. We recommend that Food for Peace and USAID/Haiti develop a
      cost estimate for implementing the first 1,000 days approach for the next multiyear
      assistance program to make sure potential cooperating sponsors incorporate sufficient
      resources in their budgets that demonstrate the capacity to fully implement the
      approach.

      Recommendation 5.         We recommend that USAID/Haiti include validation of
      implementation of the first 1,000 days approach in the monitoring plan for the next
      multiyear assistance program.

Cooperating Partners Used Indicators
That Were Excessive, Duplicative, and
Not Coordinated Across the Program
According to ADS 200.6, performance indicators are used to observe progress and measure
actual results compared with expected results. Performance indicators help answer how or
whether a USAID mission/office is progressing toward its objective. ADS 203.3.4.2 states that,
among other things, good performance indicators should be:

	 Objective, or unambiguous about what is being measured and precisely defined in the
   performance management plan.

	 Useful for management at the relevant level of decision making.

	 Adequate or including only as many indicators as are necessary and cost-effective for
   results management and reporting purposes.

12
     The pipeline and resource estimate proposal describes an awardee’s food aid resource needs and
     activities for a food aid program over the course of the upcoming implementation year.
13
     The country specific information for Haiti for fiscal year 2012 notes that the first 1,000 days approach
     was previously referred to as “Preventing Malnutrition in Children Under Two Approach” (PM2A).



                                                                                                           9
Additionally, ADS 203.3.3.2 states that only information that is directly useful for performance
management should be collected and reported. More information is not necessarily better
because it markedly increases the management burden and cost to collect and analyze.

The cooperating sponsors’ indicators did not comply fully with ADS standards. Although ADS
states that a minimum number of indicators should be chosen, World Vision is tracking
73 indicators, CRS is tracking 63, and ACDI/VOCA is tracking 47. Mission officials and
cooperating sponsors agreed that they were tracking too many indicators, for which all three
sponsors said there is a large monitoring and reporting burden. In addition, some indicators
were duplicative or irrelevant.

The 2010 evaluation recommended reducing the number of output indicators that each
cooperating sponsor was required to tracked and increasing the number of outcome and impact
indicators. The evaluation further stated that FFP and USAID require indicators that are similar,
but different enough to require separate tracking and reporting, and that tracking all the data
required is very costly. The evaluation suggested other indicators that were not being tracked
but should be. FANTA-2 also reported that the cooperating sponsors were not always tracking
information that would help evaluate the Title II program. For instance, tracking the
beneficiaries who receive both MCHN and livelihood benefits could help FANTA-2 assess the
impact of integrating these activities.

In addition, it is difficult to evaluate the overall program progress and results because the
indicators vary among the cooperating sponsors. While there are differences in the sponsors’
approaches, there are also many similarities that would lend themselves to more standardized
reporting. For instance, all three have a custom indicator to report the number of beneficiaries
receiving food rations, an important data point for several programmatic reasons. However,
these cannot be summarized because each indicator defines beneficiaries differently: World
Vision includes four types of beneficiaries, CRS counts women receiving health services, and
ACDI/VOCA counts the number of pregnant and lactating mothers receiving food rations.14

World Vision. World Vision did not address the duplicative indicators mentioned in the
evaluation, and they remain in the indicator tracking tables. In addition, World Vision added 16
new indicators in 2011 (none of which were recommended by the evaluation team), continues to
include indicators in its annual report for which no achievements have been reported, and
removed 3 from the tracking tables without explanation to USAID.

CRS. CRS also did not address the duplicative indicators mentioned in the evaluation, and they
remain in the tracking tables. CRS has yet to report on “number of people with increased
economic benefits derived from sustainable natural resource management and conservation as
a result of USG assistance,” which CRS officials said was never formalized and put into the
monitoring and evaluation system. The mission never agreed on a methodology for
measurement, and therefore the indicator was not included in the baseline. CRS agreed that
the information for the indicator would be collected for the final evaluation.

ACDI/VOCA. ACDI/VOCA was the only cooperating sponsor that addressed the evaluation’s
indicator comments directly. Of the three cooperating sponsors, it is reporting on the fewest

14
     An additional example is the indicator for the number of savings groups, which each sponsor defines
     differently. ACDI/VOCA is measuring “number established”; CRS, “number assisted”; and World
     Vision, “number trained and monitored.”


                                                                                                     10
indicators: 47. In its written comments on the evaluation, ACDI/VOCA agreed that there were
too many indicators. In the MYAP amendment, ACDI/VOCA proposed dropping seven and
adding three that were similar to the indicators recommended by the evaluation.

The reason so many indicators are included in the MYAPs is that USAID requires Title II
cooperating sponsors to report on the mission’s indicators and FFP’s indicators. In addition, the
sponsors develop their own indicators for program management purposes. Mission staff
members said their hands are tied to a certain extent because there are many stakeholders all
requiring their own specific information.

The FFP indicator guidance is issued piecemeal in three separate bulletins. The latest guidance
updates only impact indicators; the FFP staff is waiting for on the revision of the mission’s
indicators before updating annual monitoring indicators.

Because each cooperating sponsor has its unique approach for implementing the program,
USAID believes that it is only natural that indicators will vary among the sponsors. However,
the evaluation stated that all three of the Haitian MYAPs have almost the same set of indicators
in common, but they are sometimes worded differently in each organization’s indicator
performance tracking tables. Even though USAID and the cooperating sponsors met at the start
of the MYAP to discuss the indicators, they were not successful in creating one set for all. Had
USAID provided guidance in the solicitation to use a set of common indicators—with the same
wording in all three MYAPs—it could have made better comparisons. Like the evaluation’s
team, we had difficulty reconciling and comparing data in the indicator performance tracking
tables.

In addition, the evaluation stated, “Data are being tracked to meet the quarterly needs of the
indicator performance tracking tables, without sufficient analysis of data gathered at regional
sites on outcomes and impacts at the local level on the most vulnerable—which is what the FFP
program is all about.” The sponsors are collecting and tracking additional data but not reporting
them in the indicator performance tracking tables because of the already substantial reporting
burden. In some cases, the data were more useful than the data reported in the tracking tables.
Without this type of information, USAID and the larger FFP program do not know the true impact
of the MYAPs. Staff from both FANTA-2 and TOPS told the audit team that there is insufficient
data to evaluate certain components. Unless the most critical information is captured and
reported by the cooperating sponsors in the formal reporting channels, the data will not
contribute to the better understanding or improvement of Title II programs.

Therefore we make the following recommendation.

   Recommendation 6. We recommend that Food for Peace and USAID/Haiti obtain
   expert food security technical assistance in the development of the fiscal year 2013
   multiyear assistance program indicator performance tracking tables to (1) determine the
   most important indicators to track, (2) minimize inclusion of less significant indicators,
   (3) provide consistent terminology for similar indicators used by cooperating sponsors,
   and (4) fully incorporate information beneficial for research on food security assistance in
   the program indicators.

Haiti Title II Program Overlapped With
Other USAID-Funded Programs



                                                                                                  11
The careful coordination of foreign assistance is imperative if U.S. taxpayer funds are to be
spent effectively and efficiently. To this end, ADS 200.3.5.2 states that missions should seek to
use other development organizations’ resources and nonassistance tools to magnify results and
deploy resources strategically, while avoiding duplicating efforts.

The audit found evidence of duplicating efforts with other USAID-funded programs in two Title II
regions in Haiti.

World Vision and Watershed Initiative for National Natural Environmental Resources
(WINNER). During field visits to World Vision sites in Mirebalais, where World Vision has been
operating since 2008, several beneficiaries reported receiving assistance from the Title II and
USAID’s Watershed Initiative for National Natural Environmental Resources (WINNER)
programs. The purpose of WINNER, which began in June 2009, is to increase agricultural
productivity, improve watershed stability, and strengthen agricultural markets. To this end,
WINNER assists mango farmers in Mirebalais. World Vision supports mango production in the
same area and with the same beneficiaries.

In November and December 2011, the audit team discussed the overlap with World Vision and
the mission. In response, USAID/Haiti Title II staff members said they previously informed the
mission staff overseeing WINNER about the potential overlap and were told that WINNER
would be pulling out of the area and therefore any possible overlap would only occur for a short
time. However, USAID subsequently decided to continue WINNER activities in Mirebalais.

At the end of February 2012, because the audit team called attention to this problem, officials
from World Vision, WINNER, and the mission met to discuss activities in Mirebalais. WINNER
and World Vision officials assured the mission that there wasn’t duplication because World
Vision addresses commercial activities and WINNER addresses production. Nevertheless,
mission officials acknowledged that they needed to examine both implementers more closely,
and they intended to follow up on the problem, particularly since a third implementer will be
working in Mirebalais under the FFP initiative.

ACDI/VOCA and Batey Relief Alliance. ACDI/VOCA informed the audit team that efforts were
duplicated in its region with the Batey Relief Alliance program. Batey operates in the Dominican
Republic and is funded by the FFP office in Washington through the International Food Relief
Partnership (IFRP). Batey’s area of operation extends to villages along Haiti’s southeastern
border. Like ACDI/VOCA, Batey operates to reduce food insecurity and malnutrition, and it is
distributing food within the same communes and to the same target population as ACDI/VOCA.

In an October 2010 letter, Batey notified ACDI/VOCA that it would begin operating in
ACDI/VOCA’s region and asked whether ACDI/VOCA would be interested in collaborating. In
early 2011 ACDI/VOCA informed the mission of the potential duplication of effort, and according
to ACDI/VOCA, the mission subsequently confirmed the program overlap. In December 2011
the audit team also raised the problem with the mission. Officials there acknowledged the
duplication and said they had communicated this to Washington but never received a response.

In February 2012 USAID/Haiti staff communicated directly with the Batey manager, who agreed
to stop distributing food by the end of the month and not resume pending further discussion with
USAID and ACDI/VOCA. According to USAID/Haiti, this discussion was planned for April 2012.

The main reason Batey overlapped with Title II is that IFRP largely relies on grant applicants to
be aware of other donors in a country or region to avoid potential overlap issues. However,


                                                                                              12
IFRP staff members said Title II applicants and/or their local partners might not be aware of their
proposed activities overlapping with other implementer activities carried out for other USAID
programs. The wording of the criterion in the IFRP grant applications (“awareness of other
donor activity in the same district/region/country”) could be interpreted in several different ways
and may need to be clarified.

The missions also review IFRP grant applications, but in this instance, USAID/Haiti did not
identify the potential overlap as a problem. IFRP staff said that at the time the mission was
dealing with the aftermath of the January 2010 earthquake and focused on urgent relief efforts.

The overlap between WINNER and Title II occurred because of a lack of communication. World
Vision officials said they did not meet regularly with WINNER staff. The FFP officer said that
although interaction between the two implementers’ staffs takes place in the field, the
information is not communicated to headquarters in Port-au-Prince. Because the audit team
called attention to these problems, the mission asked to meet with WINNER and World Vision.

Duplicating efforts results in some beneficiaries receiving similar benefits and reducing the pool
of resources to provide to potential beneficiaries. In Mirebalais, there is not sufficient evidence
that these services are complementary rather than duplicative. In ACDI/VOCA’s region, the
Batey program is occurring in the same communes as Title II food distribution efforts. The
needs in the region are great, and there is a range of other activities that Batey could be
undertaking instead. Therefore we make the following recommendations.

   Recommendation 7. We recommend that USAID/Haiti examine ongoing and proposed
   activities in Mirebalais to avoid duplication of effort.

   Recommendation 8. We recommend that Food for Peace Washington strengthen its
   policies and procedures to make sure International Food Relief Partnership grantees’
   programs are not duplicating Title II programs.

Food for Peace Did Not Optimize Its
Use of Title II Data Management Tools
Efficiency and effectiveness must be optimized in order for USAID to maximize the impact of
scarce development resources. OMB Circular A-11 2006, Section 26, Part 26.1, states that
becoming more effective and efficient will help the government make better use of taxpayers’
dollars and in some cases also operate with fewer resources.

According to ADS 318.3.1.5, assistance awards to U.S. small businesses and nonprofits should
include a provision that allows the recipient to take title to inventions, subject to certain rights
and restrictions, including providing the government with a nonexclusive, nontransferable,
irrevocable, paid-up license to use or authorize others to use the invention throughout the world.

Title II programs entail a large amount of data collection. For instance, in FY 2011 World Vision
reported providing food rations to 166,734 beneficiaries in Haiti. In addition, Title II data have
become more complex as the program evolved into a mixture of assistance activities involving
direct distribution of food rations; health, nutrition, and hygiene training; health services; and
agricultural and nonagricultural livelihoods assistance. Effectively managing the data from
program activities has become a daunting task.




                                                                                                 13
Title II cooperating sponsors are developing their own data management systems to perform the
same or similar functions. According to TOPS staff, collecting data is a challenge for
cooperating sponsors worldwide. Some are trying to use mobile technology for surveillance and
reporting but in an ad hoc manner.

In their search for Title II best practices, TOPS staff members are working to identify the various
tools the FFP community is using to track beneficiaries. TOPS identified two data management
systems in use: World Vision’s Last Mile Mobile Solution (LMMS) and Save the Children’s
Mother and Child Aid (McAID). LMMS is not being developed with USAID funding and is
therefore proprietary to World Vision. The Agency did fund the development of McAid, therefore
permitting USAID full access to the technology.

Following a TOPS-sponsored Title II conference attended by cooperating sponsors where
LMMS and McAID were presented, participants suggested that these data management
systems could be provided to other Title II sponsors to avoid “reinventing the wheel” and for
improving the effectiveness and efficiency of collecting and processing data. It was suggested
also that a central organization could support development of a data collection and processing
system using a mobile platform so that it can be standardized and used by multiple
organizations.

Making these systems available would greatly contribute to improving effectiveness and
efficiency of the program worldwide since some cooperating sponsors are still collecting data by
hand (writing information down in logs to be transcribed into an electronic format later). This
method has many potential drawbacks, including delays in registering beneficiaries, duplication
of beneficiaries, absenteeism, and difficulty in determining how many interventions a particular
household or beneficiary is receiving.

In Haiti, the audit found that ACDI/VOCA was the only cooperating sponsor using an automated
data entry system. While World Vision developed the LMMS tool, it had not been adapted to
use in the Haiti MYAP. ACDI/VOCA considered LMMs but found it cost-prohibitive. Instead,
ACDI/VOCA developed its own mobile application for a smartphone system, which it used to
collect information on beneficiary registration and food distribution, among other things. It was
developed using free, open-source material and with federal funding.

USAID/Haiti acknowledged that the ACDI/VOCA’s data entry system “was proven to be useful in
helping avoid double counting the number of beneficiaries through recording the names of
farmers who are involved in various components.”

TOPS staff members, however, were not aware of ACDI/VOCA’s system and said the LMMS
and McAID systems are robust tools, even though they are expensive to implement and require
specialized staff. An application like ACDI/VOCA’s (which is not as robust as the other systems,
but does at least automate beneficiary registration) could be one cost-effective option.

Title II cooperating sponsors worldwide are developing their own tools to perform the same or
similar functions partly because FFP does not maintain a repository data management tool or
fund the development of data tracking and monitoring tools. According to FFP staff, a Title II
information-sharing repository did exist under a previous contract; however, there is no funding
to continue maintaining the old repository or create a new one.

Effectiveness and efficiency of the Title II data collection and processing are not being
optimized. U.S. Government resources are spent on various collection systems but are not


                                                                                                14
disseminated to the Title II community. In the absence of a central repository, it is a challenge
to determine what tools have been developed and could be used by the various Title II
cooperating sponsors, particularly new ones. Lack of a better data collection tool (automated
versus handwritten) increases the risk of not reporting accurate, consistent, and reliable data for
management to use when making decisions and allocating resources. FANTA-2 staff described
data gaps that could be addressed by improved data collection tools. Therefore we make the
following recommendations.

   Recommendation 9. We recommend that Food for Peace develop a plan to create a
   central repository for data management tools developed by Title II partners.

   Recommendation 10. We recommend that Food for Peace and USAID/Haiti retain the
   ACDI/VOCA tool for potential inclusion in the repository for data management tools.




                                                                                                15
EVALUATION OF MANAGEMENT
COMMENTS
In its response to the draft audit report, the Office of Food for Peace and USAID/Haiti concurred
with five recommendations and did not concur with the remaining five. Management decisions
were reached on two recommendations.

Summarized below are the comments and the audit team’s evaluation.

Recommendation 1. FFP and USAID/Haiti do not agree with the recommendation to establish
and implement a plan for the design, tracking, correlation, and analysis of MCHN and nutrition
and livelihood integration for the FY 2013 MYAP. FFP and USAID/Haiti officials said they do
not believe the recommendation is appropriate because it relates to future Title II multiyear
development programs that have not been designed or awarded at this time.

The recommendation is intended for implementation in the next MYAP because it will have the
greatest impact there. The request for application for the next Title II program for Haiti was
issued January 18, 2012, with proposals due by April 19, 2012. The request indicated an
anticipated start date of July or August 2012. Therefore, the next MYAP is scheduled to begin
in FY 2012 and not FY 2013. The FY 2012 guidance established the integration of livelihood
and MCHN activities as a priority objective, and therefore the recommendation is both valid and
timely for the new MYAP. ADS Chapter 595, “Audit Management Program,” states that a
reasonable effort must be made to complete corrective action on audit recommendations within
1 year of a management decision. This should be sufficient time for implementing the
recommendation whether the MYAP is awarded in FY 2012 or 2013.                Furthermore, the
recommendation is consistent with USAID’s policy of achieving maximum development impact
by applying analytical rigor and incorporating continuous learning for adaptive management
based on risks and opportunities. A management decision has not been reached for this
recommendation.

Recommendation 2. USAID/Haiti does not agree with the recommendation to establish and
implement a plan for the design, tracking, correlation with impact, and analysis of the
effectiveness and efficiency of mothers’ clubs for the FY 2013 MYAP. USAID/Haiti officials said
they do not believe the recommendation is appropriate because it relates to future Title II
multiyear development programs that have not been designed or awarded at this time.

We reiterate the importance of establishing such a plan at the design phase of the next MYAP.
ADS Chapter 595, “Audit Management Program,” states that a reasonable effort must be made
to complete corrective action on audit recommendations within 1 year of a management
decision. This should be sufficient time for implementing the recommendation whether the
MYAP is awarded in FY 2012 or 2013. Furthermore, the recommendation is consistent with
USAID’s policy of achieving maximum development impact by applying analytical rigor and
incorporating continuous learning for adaptive management based on risks and opportunities. A
management decision has not been reached for this recommendation.

Recommendation 3. USAID/Haiti agreed to add the evaluation of the cost-effectiveness and
efficiency of the various mothers’ club models being implemented by Title II cooperating



                                                                                              16
sponsors into the statement of work for the final evaluation of the current Title II program, which
should conclude on December 31, 2012. Based on the mission’s proposed actions and time
frames for completion, a management decision has been reached.

Recommendation 4. FFP and USAID/Haiti do not agree with the recommendation to develop
a cost estimate for implementing the first 1,000 days approach to make sure potential
cooperating sponsors incorporate sufficient resources in their budgets. FFP states that the cost
of such an activity depends on variables that are specific to each potential partner. Additionally
USAID/Haiti does not believe this recommendation is appropriate because it relates to future
Title II multiyear development programs that have not been designed or awarded at this time.

ADS 200.3.5.4 points out that inputs are necessary to achieve the outputs identified, and, as
such, a complete identification of inputs is essential to preparing the budget estimate required
before a project can be approved. After several years of implementing the first 1,000 days
approach, FFP should be able to develop an estimate of the costs associated with implementing
this approach to at least roughly evaluate partner proposed expenditures and determine
whether they are reasonable. FFP issued a request for application for a 5-year Title II program
in Haiti that includes a requirement for the first 1,000 days approach. At least one current
MYAP partner identified resource constraints as a factor in not being able to fully implement the
approach. ADS Chapter 595, “Audit Management Program,” states that a reasonable effort must
be made to complete corrective action on audit recommendations within 1 year of a
management decision. This should be sufficient time for implementing the recommendation
whether the MYAP is awarded in FY 2012 or 2013. A management decision has not been
reached for this recommendation.

Recommendation 5. While USAID/Haiti agrees to include in its monitoring a question related
to validating whether activities related to the first 1,000 day approach are being implemented, if
appropriate, it disagrees with the recommendation because it relates to future Title II multiyear
development programs that have not been designed or awarded at this time.

The recommendation is related to the future Title II program because it will have a greater
impact to a program just starting than to one just ending. The request for application for the
Title II program in Haiti was issued January 18, 2012, and proposals were due April 19, 2012,
with an anticipated start date of July or August 2012. The request for application stipulates the
use of the first 1,000 days, which appears in a list of USAID/Haiti and FFP’s priority objectives.
Developing a plan for monitoring the implementation of the first 1,000 days is a timely measure
during the design phase of the program. ADS Chapter 595, “Audit Management Program,”
states that a reasonable effort must be made to complete corrective action on audit
recommendations within 1 year of a management decision. This should be sufficient time for
implementing the recommendation whether the MYAP is awarded in FY 2012 or 2013.
Furthermore, the recommendation is consistent with USAID policy for applying analytical rigor
and incorporating continuous learning for adaptive management based on risks and
opportunities. A management decision has not been reached for this recommendation.

Recommendation 6. USAID/Haiti does not agree with the recommendation to obtain expert
food security technical assistance in the development of the FY 2013 MYAP indicator
performance tracking tables. Mission officials said it is standard practice to use technical
assistance efforts from FFP’s contractor FANTA III for monitoring and indicator workshops.
However, USAID/Haiti asserts that the recommendation is not appropriate because it relates to
future Title II multiyear development programs that have not been designed or awarded at this
time.


                                                                                                17
The planning phase of the next MYAP is an appropriate time for USAID/Haiti to incorporate the
recommended steps into the FANTA III workshop in order to make sure they are covered. ADS
Chapter 595, “Audit Management Program,” states that a reasonable effort must be made to
complete corrective action on audit recommendations within 1 year of a management decision.
This should be sufficient time for implementing the recommendation whether the MYAP is
awarded in FY 2012 or 2013. Furthermore, the recommendation is consistent with USAID’s
policy of achieving maximum development impact by applying analytical rigor and incorporating
continuous learning for adaptive management based on risks and opportunities.               A
management decision has not been reached for this recommendation.

Recommendation 7. USAID/Haiti agreed with our recommendation to examine ongoing or
proposed activities in Mirebalais to avoid duplicating efforts. A USAID official said they have
taken action by holding regular meetings for all organizations that work on U.S. government-
funded programs and have produced a tracking tool to coordinate and avoid duplicating
activities. Based on the completed actions identified by the mission, a management decision
has been reached.

Recommendation 8. FFP agreed to incorporate revised grant requirement language in its
annual IFRP program request for applications to strengthen instructions for preventing
duplication of efforts. Because a proposed date for completion was not provided, a
management decision has not been reached.

Recommendation 9. FFP officials said they already addressed the recommendation to create
a central repository for data management tools developed by Title II partners by developing a
plan and through initial guidance contained in FFP Information Bulletin (FFPIB) 11-02.
However, this document states, “In this FFPIB, FFP describes the general approach to use in
preparing and submitting baseline/final evaluation datasets.” The document does not discuss
submitting data management tools developed by Title II implementers. Therefore, the FFP’s
reported action is not responsive to the recommendation. For this reason, a management
decision has not been reached.

Recommendation 10. FFP officials said they recommended to the institutional contractor that
it include the ACDI/VOCA tool in its revision of promising tools for data management. Further,
the contractor has contacted ACDI/VOCA about the tool. However, because a proposed date
for completion of these actions has not been provided, a management decision has not been
reached.




                                                                                            18
                                                                                              Appendix I



SCOPE AND METHODOLOGY
Scope
RIG/San Salvador conducted this performance audit in accordance with generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient, appropriate evidence to provide a reasonable basis for our audit findings and
conclusions in accordance with our audit objectives. We believe that the evidence obtained
provides that reasonable basis.

The objective of the audit was to determine whether USAID’s P.L. 480 Title II program in Haiti is
reducing food insecurity and increasing the resiliency of vulnerable and extremely vulnerable
rural households. In addition, the Inspector General Act of 1978, as amended, requires auditors
to promote economy, efficiency, and effectiveness in the administration of USAID programs and
to prevent and detect fraud and abuse in such programs and operations.

In planning and performing the audit, we assessed the mission’s controls related to its P.L. 480
Title II program. The management controls identified included review of USAID/Haiti’s August
2011 operational plan, the mission’s FY 2010 annual self-assessment of management controls
(which the mission is required to perform to comply with the Federal Managers’ Financial
Integrity Act of 1982), the mission data quality assessments, site visit reports by the mission
staff, review of AOTR15 files, and portfolio reviews.

RIG/San Salvador conducted the audit in various locations in central, south, and southeast
Haiti. Field visits were made November 7 to November 18, 2011, and December 5 to
December 16, 2011.

USAID/Haiti’s P.L. 480 Title II MYAP is funded under three main conduits: internal transport,
shipping and handling (ITSH), which funds in-country costs directly associated with moving food
aid to storage and distribution sites and for storing and distributing the food; PL 480 Title II
Section 202(e) which funds program materials, tools and equipment, administrative costs,
management, and personnel costs; and monetization,16 in which funds derived from the sale of
commodities are used to cover costs not permitted for use under ITSH or P.L. 480 Title II,
Section 202(e). The bulk of the program costs, however, are food commodities and shipping
costs to the host country, which are paid directly by USAID. Commodities are granted to the
cooperating sponsors. Monetization proceeds are derived from the sale of a portion of these
commodities.     Our audit focused on MYAP activities performed under three cooperative
agreements with CRS, World Vision, and ACDI/VOCA.




15
      On January 1, 2012, USAID changed the term “AOTR” to “AOR” (agreement officer’s representative)
      to align with changes in the Federal Acquisition Regulation. Because audit fieldwork occurred before
      the change, this report uses AOTR.
16	
      Monetization in Haiti was halted in FY 2010 for the remainder of the MYAP because it was not
      suitable.


                                                                                                       19
                                                                                             Appendix I



                          Program Totals Through FY 2011 (Unaudited, in $)
Fund Source                            ACDI/VOCA                 CRS                   World Vision
ITSH                                      5,265,389                 8,640,025             11,084,191
202(e)                                   12,133,029                 6,706,431             11,326,220
Commodities                              11,730,500                23,033,400             32,463,700
Carryover Commodities                       -                       3,028,500                 925,600
Ocean Freight                             4,156,600                 8,258,000             10,930,500
Carryover Monetization             -                                1,500,000                 361,955
Cost Share17                                 26,363                   543,000               9,229,249

                      Program Expenditures as of January 2012 (Unaudited, in $)
                                         ACDI/VOCA                 CRS                World Vision
     ITSH                                   3,669,591              6,898,399              9,672,167
     202(e)                                 9,322,588              6,337,569            10,470,294

     Total
                                12,992,179
            13,235,968
           20,142,461

     Monetization18                        10,383,938              6,763,559            14,597,097


                      Program Obligations as of January 2012 (Unaudited, in $)
                                        ACDI/VOCA                 CRS                 World Vision
     ITSH                                  5,265,389               7,769,212           11,084,191
     202(e)                               11,919,529               6,522,000           11,326,220
     Total                                17,184,918              14,291,212           22,410,411

The audit covered the P.L. 480 Title II activities implemented from February 12, 2008, through
December 16, 2011. The audit scope was focused primarily on the areas of agricultural and
health because these two areas comprised 82 percent of the FY 2011 program budget. The
audit did not focus on commodities because the Office of Inspector General issued a report on
this aspect of the program in December 2009.19 The audit also did not focus on early warning
systems, a small program component, or education and safety net support, which were
implemented only by CRS.

Methodology
To answer the audit objective and to determine whether USAID/Haiti appropriately managed the
program activities, we met with key USAID/Haiti personnel and cooperating sponsor officials to
document their roles and responsibilities in implementing the P.L. 480 Title II activities in Haiti.

The auditors interviewed USAID/FFP Washington staff, USAID/Haiti staff, including the activity
manager and supporting program staff, USAID/Haiti health staff, and staff from the three
cooperating sponsors. In addition, we interviewed staff from two USAID/FFP contractors,
FANTA and TOPS.

To gain an understanding of the program, the audit team reviewed USAID/Haiti’s activity
approval document for increased food security, the program’s midterm evaluation, cooperative
agreements, and associated modifications, USAID’s issue letters relating to the award
17
     Cost-share data is the total for the program. 

18
     FFP technically does not monetize proceeds; therefore this monetization proceeds are not included in

     the program obligations.
19   “
      Audit of USAID/Haiti’s P.L. 480 Title II Programs” (Report No. 1-521-10-002-P).



                                                                                                      20
                                                                                     Appendix I


proposals, site visit reports, operating plans, and portfolio reviews.

We also reviewed the three cooperating sponsors’ documentation, including their proposals,
pipeline and resource estimate proposals, periodic progress reports, and various documents
that support program activities.

We reviewed applicable policies, regulations, and guidelines pertaining to USAID/Haiti’s
implementation of the program, including ADS, the Code of Federal Regulations, and
USAID/FFP guidance on P.L. 480 Title II programs such as the P.L. 480 handbook, Title II
Guidelines FY 2008, technical references, FFP information bulletins, country specific
information, and FFP requests for application.

We conducted field visits in the program target areas of the three cooperating sponsors.
Because we did not have a well-defined list of the numerous small activities and anticipated
difficulty reaching remote locations, the auditors indicated type of activity to review, and the
cooperating sponsors selected the site locations where these activities could be observed. In
all, the team visited 51 separate activities over 10 days out of approximately 8,234 activities.




                                                                                             21
MANAGEMENT COMMENTS 




June 13, 2012


MEMORANDUM

TO: 	           Van Nguyen, Acting Regional Inspector General/San Salvador

FROM: 	         Dina Esposito /s/, Director, USAID/Office of Food for Peace

                Carleene Dei, Mission Director /s/, USAID/Haiti

SUBJECT: 	      Management Responses to RIG/San Salvador Draft Report on Audit of USAID’s
                Food for Peace Activities in Haiti (Report No. 1-521-12-004-P)



On May 15, 2012, the USAID Office of Food for Peace (USAID/FFP) in Washington and
USAID/Haiti received the draft report on the subject audit containing six findings and ten
recommendations. The purpose of this memorandum is to respond to these recommendations.

In providing responses to the audit recommendations, FFP and USAID/Haiti underscore that
there are limitations on USG involvement because USAID/FFP awards are cooperative
agreements. There are also limitations on the level of programmatic changes that USAID can
realistically ask ACDI/VOCA, CRS and WV to implement as awards with these implementing
partners are expected to end in September 2012 (or February 2013 for ACDI/VOCA).

Recommendation 1: We recommend that Food for Peace and USAID/Haiti establish a plan
for the design, tracking, correlation and analysis of maternal and child health and nutrition
and livelihood integration for the FY 2013 multiyear assistance program.

FFP and USAID/Haiti do not concur with this recommendation. We do not believe that this
recommendation is appropriate as it relates to future Title II multiyear development programs
that have not been designed or awarded at this time. It is therefore impossible to discuss the
design and tracking of activities that have yet to be identified. It is further impossible to
establish the tracking of a recommendation that relates to future, to date, inexistent programs.
We therefore request that RIG/San Salvador close Recommendation 1 prior to the issuance of the
RIG report.

Recommendation 2: We recommend that Food for Peace and USAID/Haiti establish a plan
for the design, tracking, correlation and analysis of the effectiveness and efficiency of
mother support groups for the FY 2013 multiyear assistance program.

USAID/Haiti does not concur with this recommendation and does not believe that this
recommendation is appropriate as it relates to future Title II multiyear development programs
that have not been designed or awarded at this time. It is therefore impossible to discuss the
design and tracking and analysis of the effectiveness of an activity that has not yet been
proposed. It is further, impossible to establish the tracking of a recommendation that relates to
future, to date, nonexistent programs. Based on this, we request that RIG/San Salvador close
Recommendation 2 prior to the issuance of the RIG report.

Recommendation 3: We recommend that Food for Peace develop a plan to evaluate the
cost effectiveness and efficiency of the various mother support group models being
implemented by the Title II cooperating sponsors.

USAID/Haiti concurs with this recommendation and will add this recommendation’s issue to the
scope of work (SOW) for the final and joint evaluation of the current Title II multiyear programs
of ACDI/VOCA, CRS and WV. We will provide the specific question that will be included in
the SOW by July 15, 2012, and we expect the evaluation results by December 15, 2012.

Recommendation 4: We recommend that Food for Peace and USAID/Haiti develop a cost
estimate for implementing the first 1,000 days approach for the next multiyear assistance
program to ensure potential cooperating sponsors incorporate sufficient resources in their
budget and demonstrate the capacity to fully implement the First 1,000 Days methodology.

FFP and USAID/Haiti do not concur with this recommendation. The Country Specific
Information and FFP Guidance provide the relevant information to potential partners regarding
the MCHN sector, including the first 1,000 Days methodology. Given that awards are
cooperative agreements, there are limitations in the involvement of the USG in the programs.
Further, the cost of such an activity is very dependent on variables that are specific to each
potential partner. In addition, USAID/Haiti does not believe that this recommendation is
appropriate because it relates to future Title II multiyear development programs that have not
been designed or awarded at this time. It is further impossible to establish the tracking of such a
recommendation as it relates to future, to date, nonexistent programs. Based on these
clarifications we request that RIG/San Salvador close Recommendation 4 prior to the issuance of
the RIG report.

Recommendation 5: We recommend that USAID/Haiti include validation of the
implementation of the First 1,000 Days approach in the monitoring plan for the next
multiyear assistance program.




                                                                                                    23
USAID/Haiti agrees to include in its monitoring a question related to validating whether or not
activities related to the first 1,000 day approach are being implemented if this is deemed
appropriate. When FFP reviews applications for new programs part of the review includes
examining whether the applicant is proposing appropriate activities for the first 1000 days
approach and whether the outcome and monitoring indicators are appropriate. However,
USAID/Haiti does not concur with this recommendation because it relates to future Title II
multiyear development programs that have not been designed or awarded at this time. It is
further, impossible to establish the tracking of such a recommendation as it relates to future, to
date, nonexistent programs. Based on this clarification, we request that RIG/San Salvador close
Recommendation 5 prior to the issuance of the RIG report.

Recommendation 6: We recommend that Food for Peace and USAID/Haiti seek expert
food security technical assistance in the development of the FY 2013 multiyear assistance
program indicator performance tracking tables in order to (1) determine the most
important indicators to track; (2) minimize inclusion of less significant indicator; and (3)
provide consistent terminology for similar indicators across cooperating sponsor, and (4)
fully incorporate information beneficial for food security assistance research in the
program indicators.

Food for Peace contracts technical assistance expertise through FANTA III; USAID/Haiti may
(and does) use FANTA III expertise because of the current FFP contract. It is standard practice
(since 2009) for all new multiyear program implementers to participate in a Monitoring and
Indicator workshop, facilitated by FANTA III in the country where the programs will be
implemented. In general multiyear programs are very complex and as they are usually cross-
cutting, their activities are implemented across pillars, which require indicators for each pillar.
In Haiti’s program, the Title II program cuts across three of the four USG Mission pillars.
USAID/Haiti does not concur with this recommendation because it is not appropriate as it relates
to future Title II multiyear development programs that have not been designed or awarded at this
time. It is therefore, impossible to establish the tracking of such a recommendation because it
relates to future, to date, nonexistent programs. Based on these clarifications, we request that
RIG/San Salvador close Recommendation 6 prior to the issuance of the RIG report.

Recommendation 7: We recommend that USAID/Haiti examine any on-going or proposed
activities in Mirebalais to avoid duplication of effort.

USAID/Haiti concurs with this recommendation and has initiated a regular meeting between all
of the organizations (and USAID offices) that work in the area on U.S. Government funded
programs. They have produced a tracking tool to inform all awardees about who is doing what,
where, and will continue to coordinate to avoid duplication. This has already taken place and we
therefore conclude that the recommendation should be closed.

Recommendation 8: We recommend that Food for Peace Washington strengthen their
policies and procedures to ensure International Food Relief Partnership recipient
programs are not duplicating Title II programs.




                                                                                                24
FFP plans to incorporate revised grant application requirement language into its annual IFRP
Request for Applications (RFA) regarding the duplication of other donor activities. The
language will revise and strengthen the current RFA instructions for grant applicants to address
their awareness of other donors (both Title II and otherwise) in their proposed country/region of
activities with a prerequisite to describe coordination with donors and/or Missions. The new
RFA language will also remain as a scoring component for all IFRP grant applications. Please
note that the IFRP grant program is also funded with Title II, and this includes the commodities.
However, IFRP activities usually target institutionalized beneficiaries with meals cooked on-site.
We therefore request that this recommendation be closed.

Recommendation 9: We recommend that Food for Peace develop a plan to create a central
repository for data management developed by Title II partners.

FFP has already begun to develop such a plan and initial guidance is contained in a Food for
Peace Information Bulletin 11-02, here:
http://transition.usaid.gov/our_work/humanitarian_assistance/ffp/ffpib.08.12.11.pdf
We therefore request that this recommendation be closed.

Recommendation 10: We recommend that Food for Peace and USAID/Haiti ensure that
the ACDI/VOCA tool is retained for potential inclusion in the repository for data
management tools.

Food for Peace has recommended to its institutional contractor which works under the name
Technical and Operational Performance Support (TOPS) that it include the ACDI/VOCA tool in
its revision of promising tools for data management. They are in contact with ACDI/VOCA
about this tool. We therefore request that this recommendation be closed.




                                                                                               25
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
